W                                                                          September 20, 1999



TO:            AO/Chief Information Officer

FROM:          W/Assistant Inspector General for Auditing

SUBJECT:       Final Report on the Audit of NASA’s Year 2000 Program –
               Renovation and Validation Phases
               Assignment Number A9901501
               Report No. IG-99-034

The subject final report is provided for your information and use. Please refer to the Results in
Brief section for the overall audit results. Our evaluation of your comments is incorporated into
the body of the report, and individual comments are addressed in Appendix F.

If you have questions concerning the report, please contact Mr. David L. Gandrud, Program
Director, Information Technology Program Audits, at (650) 604-2672, or Mr. Roger W. Flann,
Audit Program Manager, at (818) 354-9755. We appreciate the courtesies extended to the audit
staff. The report distribution is in Appendix G.

[original signed by]

Russell A. Rau

Enclosure

cc:
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
G/General Counsel
JM/Director, Management Assessment Division
                                       2

bcc:
AO/Audit Liaison Representative
AIGA, IG, Reading (w/o Encl.) Chrons
ARC/204-11/Program Director
JPL/180-300/Program Manager
                                                          IG-99-034




AUDIT
                              NASA’S YEAR 2000 PROGRAM –
REPORT                     RENOVATION AND VALIDATION PHASES

                                     September 20, 1999




                           OFFICE OF INSPECTOR GENERAL

National Aeronautics and
Space Administration
Additional Copies

To obtain additional copies of this report, contact the Assistant Inspector General for Auditing at
(202) 358-1232, or visit http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:

               Assistant Inspector General for Auditing
               NASA Headquarters
               Code W, Room 8V69
               300 E Street, SW
               Washington, DC 20546-0001


NASA Hotline

To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at (800)
424-9183, (800) 535-8134 (TDD), or at www.hq.nasa.gov/office/oig/hq/hotline.html#form; or
write to the NASA Inspector General, P.O. Box 23089, L’Enfant Plaza Station, Washington, DC
20026. The identity of each writer and caller can be kept confidential, upon request, to the extent
permitted by law.




Acronyms

GAO            General Accounting Office
GSFC           Goddard Space Flight Center
IV&V           Independent Validation and Verification
JPL            Jet Propulsion Laboratory
JSC            Lyndon B. Johnson Space Center
KSC            John F. Kennedy Space Center
LeRC           Lewis Research Center
               (now the John H. Glenn Research Center at Lewis Field)
MC             Mission-critical
MSFC           George C. Marshall Space Flight Center
NMC            Nonmission-critical
OMB            Office of Management and Budget
Y2K            Year 2000
                               NASA Office of Inspector General

IG-99-034                                                                              September 20, 1999
 A9901501

                                NASA’s Year 2000 Program –
                               Renovation and Validation Phases


Introduction

The NASA Office of Inspector General performed a review of the Agency’s renovation and
validation phases at five NASA Centers1 and the Jet Propulsion Laboratory (JPL). Our objectives
were to (1) evaluate the adequacy of NASA’s efforts to renovate and validate systems with Year
2000 (Y2K) date problems, (2) evaluate the adequacy of NASA’s oversight of contractor
renovation and validation activities, and (3) determine whether NASA’s Y2K reporting to the
Office of Management and Budget (OMB) is accurate and well supported. This report relates to
the first and third objectives. Specifically, we evaluated the adequacy of the Agency’s Y2K
guidelines and requirements (hereafter referred to as “Agency guidelines”) and documentation
related to its renovation and validation efforts. We also evaluated the accuracy and sufficiency of
information NASA provided to OMB on February 15, 1999, for the Y2K renovation and
validation activities at the six installations audited. The second objective was addressed in other
reports (see Appendix B). Details on our scope and methodology are in Appendix A.

Results in Brief

The Agency guidelines for the renovation and validation phases were generally consistent with
General Accounting Office (GAO) guidance for addressing Y2K date conversion problems.
Also, for those inventory items reviewed,2 documented evidence indicated general compliance
with the Agency’s renovation and validation phase requirements at five of the six locations
audited. JPL had generally complied with the renovation and validation phase requirements
for nonmission-critical (NMC) systems,3 but had not progressed sufficiently for us to
determine the adequacy of its validation efforts for mission-critical (MC) systems.4 JPL
reported that it had

1
  Goddard Space Flight Center (GSFC), Lyndon B. Johnson Space Center (JSC), John F. Kennedy Space
Center (KSC), John H. Glenn Research Center at Lewis Field (formerly Lewis Research Center (LeRC)), and
George C. Marshall Space Flight Center (MSFC).
2
  For installation-level management purposes, each installation divided one or more systems into several discrete
inventory items. Accordingly, our sample consisted of entire systems and, in some instances, a limited number of
inventory items within systems. To illustrate, Goddard divided its Business and Administrative Applications
system, GSFC-1, into 59 discrete inventory items. We limited our review of the GSFC-1 system to 4 of the 59
component inventory items.
3
  Nonmission-critical systems include those that have minimal impact and risk.
4
  Mission-critical systems include those that have high impact or risk, for example, functions affecting safety or
human life.
completed the validation test phase on only one of four MC systems. Regarding NASA’s Y2K
reporting to OMB, nothing came to our attention to indicate a material problem. This report
contains no recommendations for corrective action.

Background

The Y2K date conversion problem affects computer systems worldwide. Software application
programs that use a standard two-digit format (mm/dd/yy) to generate a date may not work
properly after the year 2000. Systems that will continue to function properly are designated “Y2K
compliant.” Systems that are not “Y2K compliant” are at risk of failure and may cause other
systems to fail. Y2K compliance is defined in NASA’s Year 2000 Test and Certification
Guidelines and Requirements as information technology that:

        . . . accurately processes date/time data (including, but not limited to, calculating,
        comparing, and sequencing) from, into, and between the twentieth and twenty-first
        centuries, and the years 1999 and 2000 and leap year calculations, to the extent that
        other information technology, used in combination with the information technology
        being acquired, properly exchanged date/time data with it.

In January 1997, OMB required all Federal agencies to adopt a five-phase model for
implementing the Y2K program. The key elements of each phase, as contained in a GAO
guide5 and the NASA Y2K Program Plan, follow:

        •   Awareness. Defines the date conversion problem, gains executive-level support,
            and makes everyone aware of Y2K activities.

        •   Assessment. Assesses the impact of the date conversion problem on the
            organization. Identifies systems with date conversion problems and appropriate
            remedies.6

        •   Renovation. Corrects the date conversion problem by repairing, replacing, or
            retiring selected platforms, applications, databases, and utilities.

        •   Validation. Tests, verifies, and validates the solution used to correct the date
            conversion problem.

        •   Implementation. Places the validated items into production.


Our observations follow regarding the Agency guidelines and items reviewed in the
renovation and validation phases.


5
 The GAO guide is entitled, “The Y2K Computing Crisis: An Assessment Guide,” dated September 1997.
6
 The NASA Office of Inspector General issued an audit report entitled, “Year 2000 Date Conversion –
Assessment Phase,” IG-98-040, dated September 30, 1998.


                                                   2
Guidelines for Y2K Renovation and Validation Phases

The Agency guidelines for the renovation and validation phases were generally consistent with
GAO guidance for addressing Y2K date conversion problems. The GAO guidance entitled
“The Y2K Computing Crisis: An Assessment Guide,” issued in September 1997, provided a
framework and checklist for assessing the readiness of Federal agencies to achieve Y2K
compliance and has been used by Federal agencies as a basis for preparing their own Y2K
guidelines. In comparing the “NASA Year 2000 (Y2K) Program Plan,” dated June 15, 1998,
to the GAO guide, we found that the principal elements described in the GAO guide for the
renovation and validation phases were also described in NASA’s Y2K Program Plan.

In addition to performing the comparison, we assessed a document entitled the “NASA Year
2000 Agency Test and Certification Guidelines and Requirements,” dated July 2, 1998. The
document provided basic requirements and guidance to NASA installations for the validation
test phase. Nothing came to our attention that would indicate material deficiencies in the
document.

Renovation Phase

Documentation regarding the renovation phase showed that the sampled inventory items (MC
and NMC) generally complied with the Agency guidelines for the renovation phase at all
locations audited

In performing our review, we selected a judgment sample of 47 MC and 53 NMC inventory
items (about 5.5 and 5.8 percent, respectively, of total items) that had completed the
renovation phase (see Appendix C). We then requested documentary evidence from the
installations to help us determine whether they had performed the following key activities, as
applicable, in their renovation work:

       •   Converted applications, databases, archives, and related system components.
       •   Developed data bridges and filters.
       •   Replaced applications and related system components.
       •   Documented code and system changes, and communicated those changes to
           affected users.
       •   Retired applications and related system components.

The documentation indicated that the installations had performed the applicable activities and,
therefore, had complied with the basic Agency guidelines for the renovation phase.

Validation Phase

Documentation regarding the validation phase showed that the sampled NMC inventory items
had generally complied with the Agency’s validation phase guidelines at all locations audited.
Further, the documentation indicated that the sampled MC inventory items had generally
complied with the validation phase guidelines at five of the six locations audited. The sixth


                                               3
location, JPL, had not yet satisfied the independent validation and verification (IV&V)
requirement,7 as of February 15, 1999, and, therefore, we could not determine the adequacy of
JPL’s validation efforts for any of its MC inventory items. As of May 6, 1999, JPL reported
completion of the required IV&V of test results for one of four MC systems.

We selected a judgment sample of 38 MC and 47 NMC inventory items (about 4.4 and 4.2
percent, respectively, of total items) that had completed the validation phase (see
Appendix D). For each sampled item, we requested evidence that would help us determine
whether the installations had performed the following key activities, as applicable, in their
validation work:

           •   Developed testing plans and schedules.
           •   Developed a strategy to manage the testing of contractor-converted systems.
           •   Implemented a risk-based approach for testing.
           •   Defined, collected, and used test metrics to manage the testing and validation
               process.
           •   Completed unit, integration, and system testing.
           •   Completed IV&V test processes.
           •   Documented test results in a test report or completed the Y2K checklist.
           •   Certified compliance by a NASA employee.
           •   Used automated test tools and test scripts.
           •   Initiated acceptance testing.
           •   Received formal waivers for any variance from Agency requirements.

The documentation indicated that the installations had performed the applicable activities and,
therefore, generally complied with the Agency guidelines for the validation phase.

Extent, Quality, and Availability of Documentary Support

 The extent, quality, and availability of documentation evidencing NASA’s renovation and
validation efforts varied significantly by location. On the one hand, documentation at
Marshall closely matched the Agency guidelines, was well organized, and was readily
available for our review. On the other hand, documentation at JPL was often limited to
electronic mail messages stating that a Y2K renovation or validation activity had occurred.
While only a minimum of documentary evidence existed at some installations, we were
nonetheless able to determine that the evidence was sufficient to meet Agency guidelines.




7
    IV&V of test results is required for MC items only; IV&V is not required for NMC items.


                                                        4
Management’s Response

Although the report did not contain recommendations, the CIO took exception to report
statements regarding the status of JPL’s validation phase and IV&V requirements (see
Appendix E).

Evaluation of Management’s Response

Our evaluation of the CIO’s response is in Appendix F. Where appropriate, we changed the
report.




                                             5
                Appendix A. Objectives, Scope, and Methodology

Objectives

Our objectives were to (1) evaluate the adequacy of NASA’s efforts to renovate and validate
systems with Y2K date problems, (2) evaluate the adequacy of NASA’s oversight of contractor
renovation and validation activities, and (3) determine whether NASA’s Y2K reporting to OMB is
accurate and well-supported. This report relates to the first and third objectives. Specifically, we
evaluated the adequacy of the Agency’s Y2K guidelines and requirements and the documentation
related to its renovation and validation efforts. We also evaluated NASA’s Y2K reporting to
OMB. The second objective was addressed in other reports (see Appendix B).

Scope and Methodology

We performed work at Goddard Space Flight Center, Lyndon B. Johnson Space Center,
John F. Kennedy Space Center, John H. Glenn Research Center at Lewis Field (formerly
Lewis Research Center), George C. Marshall Space Flight Center, and the Jet Propulsion
Laboratory. Specifically, we:

   •   Coordinated with other NASA Office of Inspector General auditors who were
       performing work on the Y2K assessment phase to avoid unnecessary duplication of
       audit effort.

   •   Interviewed management representatives at NASA Headquarters and installations to
       determine their Y2K processes and procedures.

   •   Reviewed guidance issued by OMB, GAO, and NASA and its installations to
       determine their Y2K processes and procedures and documentation requirements.

   •   Obtained information regarding Y2K date-sensitive systems and inventory items for
       the period August 1996 through February 15, 1999, and determined the level of Y2K
       program completion for those systems and inventory items.

   •   Judgmentally selected systems and inventory items for review, starting with MC
       systems or inventory items that had completed the renovation and/or validation phases.

   •   Reviewed sampled items for compliance with Agency guidelines.

   •   Reviewed NASA’s report to OMB, dated February 15, 1999, for material weaknesses
       related to the accuracy and adequacy of information being reported for the renovation
       and validation phases at the six installations audited.

   •   Coordinated with the Air Force Audit Agency on audit methodology.




                                               6
Appendix A

Management Controls

We reviewed Agency guidelines and requirements related to the renovation and validation phases
to determine applicable requirements. The requirements, or controls, were then tested against the
sampled systems and inventory items to determine whether the installations had complied with
these requirements. The controls generally were adequate.

Audit Field Work

We performed the audit field work for this report from August 1998 through April 1999. We
conducted the review in accordance with generally accepted government auditing standards.




                                              7
                    Appendix B. Summary of Prior Coverage

The NASA Office of Inspector General has issued four reports relating to Y2K. The reports
are summarized below. Copies of the report are available at
http://www.hq.nasa.gov/office/oig/hq/issuedaudits.html.

“Exemptions for Year 2000 Testing,” Report Number IG-99-025, May 13, 1999. The
Johnson Space Center, Financial Management Division, completed testing of the Center
Financial System before NASA issued its July 1998 Testing and Certification Guidelines and
Requirements, but did not obtain an exemption from use of the NASA guidance. The Johnson
Chief Information Officer had not established procedures to implement the exemption process.
Without the exemption, the Center lacks reasonable assurance that the Center Financial
System will meet the minimum NASA testing requirements for Y2K compliance. We made
four recommendations related to procedures for testing and exemptions of information
technology assets that completed testing before the issuance of NASA’s testing guidelines.
Management concurred with the recommendations.

“Year 2000 Program Compliance Requirements in NASA Information Technology-
Related Contracts,” Report Number IG-99-022, March 31, 1999. NASA lacks reasonable
assurance that its systems will be Y2K compliant on January 1, 2000. The Agency issued
Y2K guidance for installations to follow when acquiring, operating, and maintaining
information technology assets. The guidance required contracting officers to include a clause
addressing Y2K in information technology solicitations and new contracts. Also, contracting
officers were required to modify the statement of work to address Y2K in existing information
technology operation and maintenance contracts. Each of the six locations audited had
included the NASA-directed Y2K requirements in solicitations and new contracts used to
acquire information technology assets. However, JPL had not included the NASA-directed
requirements in all its applicable information technology operation and maintenance contracts
as of January 31, 1999. JPL management attributed its delay to other workload priorities.
Untimely incorporation of the Y2K compliance requirements into NASA contracts adversely
affects the Agency’s ability to meet OMB’s milestones for Y2K renovation, validation, and
implementation phases and increases the potential for noncompliant Agency systems on
January 1, 2000. Also, contractors may not be held accountable for ensuring Y2K compliance
if the requirements are not incorporated. We recommended that the NASA Chief Information
Officer (1) coordinate with the NASA Management Office at JPL to establish a target date(s)
for JPL completion and (2) monitor JPL’s progress in meeting the target date(s). Management
concurred with both recommendations. Corrective action was completed on the first
recommendation and is pending on the second.

“Year 2000 Program Oversight of NASA’s Production Contractors,” Report Number
IG-99-004, December 17, 1998. NASA lacked reasonable assurance that its production
contractors would provide Y2K compliant data to support the Agency’s key financial and
program management activities. This condition occurred because NASA had not asked the
two principal Department of Defense audit and contract administration agencies, the Defense



                                              8
Appendix B

Contract Audit Agency and the Defense Contract Management Command, to conduct Y2K
reviews at NASA’s major contractor locations. As a result, the Agency risks using
noncompliant data that may adversely affect the Agency’s control, budgeting, program
management, and cost accounting activities. We made two recommendations to NASA
relating to the Y2K status of its major contractors. Management concurred with the intent of
the recommendations and issued a letter to the Defense Contract Audit Agency requesting data
on Y2K coverage of the Agency’s major contractors. In addition, NASA issued a letter to its
Center Procurement Officers instructing them to monitor Y2K problems identified by the
Defense Contract Audit Agency.

“Year 2000 Date Conversion – Assessment Phase,” Report Number IG-98-040,
September 30, 1998. Some NASA Centers did not have documented support for Y2K cost
estimates reported to OMB and did not prepare estimates using a consistent methodology.
Also, documentation did not always exist to support the manner in which Center assessments
and decisions for Y2K compliance were conducted. The audit showed that NASA Centers
also needed to improve the sharing of information on the status of Y2K compliance associated
with commercial off-the-shelf products. We made three recommendations to assist NASA in
addressing the Y2K date conversion problem. Management concurred with the two
recommendations concerning documentation for Y2K assessments and the sharing of
information on commercial off-the-shelf products. Management did not concur with the
recommendation concerning guidance for Y2K cost estimates, stating that adequate guidance
on cost estimation had been provided to NASA Centers. This issue remains unresolved.




                                             9
                 Appendix C. Sample of Renovated Inventory Items

The table below shows the number of sampled inventory items relative to the universe of
items subject to renovation activities at each installation.


       Inventory Items Subject to Renovation and Number of Items Sampled

                              Items Subject
                   1
    Installation             to Renovation2            Items Sampled             Percent Sampled
                             MC        NMC             MC       NMC               MC       NMC
        GSFC                 176         33             12        0                 6.8      0.0
         JPL                 472        539              8       20                 1.7      3.7
         JSC                 168         83              5       17                 3.0     20.5
        KSC                     9       147              6        9                67.0      6.1
        LeRC                    6        63              3        7                50.0     11.1
        MSFC                   26        50             13        0                50.0      0.0
        Totals               857           915           47           53             5.5         5.8



1
  Goddard Space Flight Center (GSFC), Jet Propulsion Laboratory (JPL), Lyndon B. Johnson Space Center
(JSC), John F. Kennedy Space Center (KSC), John H. Glenn Research Center at Lewis Field (formerly Lewis
Research Center (LeRC)), and George C. Marshall Space Flight Center (MSFC).
2
  The number of items subject to renovation was not always fully and consistently developed and maintained at
each Center. In those cases, we conservatively estimated the number of items based on available information.




                                                      10
                  Appendix D. Sample of Validated Inventory Items

The table below shows the number of sampled inventory items relative to the universe of
items subject to validation activities at each installation.


       Inventory Items Subject to Validation and Number of Items Sampled


                             Items Subject
     Installation            to Validation*            Items Sampled            Percent Sampled
                             MC        NMC             MC       NMC              MC       NMC
       GSFC                  176          33             7        0               4.0      0.0
        JPL                  472         539             0       17               0.0      3.2
        JSC                  168          83             5       17               3.0     20.5
       KSC                    10         147             7        9              70.0      6.1
       LeRC                     6         63             2        4              33.0      6.3
       MSFC                   34         252            17        0              50.0      0.0
        Totals               866         1,117          38            47           4.4          4.2


* The number of items subject to renovation was not always fully and consistently developed and maintained at
each Center. In those cases, we conservatively estimated the number of items based on available information.




                                                      11
Appendix E. – Management’s Response




                                      See Appendix F,
                                      OIG Comment 1

                                      OIG Comment 2

                                      OIG Comment 3

                                      OIG Comment 4


                                      OIG Comment 5




                12
Appendix E




                  See Appendix F,
                  OIG Comment 4

                  See Appendix F,
                  OIG Comment 5




             13
           Appendix F. OIG Comments on Management’s Response

The Chief Information Officer took exception to several statements in the audit report
regarding JPL’s validation phase status and the independent verification and validation
requirements. Each of the requested changes to the report are listed below, followed by the
Office of Inspector General (OIG) responses.

Management’s Comment. Delete the phrase on page 1: “ . . . but had not progressed
sufficiently for us to determine the adequacy of its validation efforts for mission-critical (MC)
systems.”

1. OIG Comments. The evidence does not support deletion. As of February 15, 1999, JPL
had not completed the IV&V requirement for any of its four MC systems. According to the
NASA Y2K test and certification guideline requirements, “the objectives of the validation
phase are to uncover errors introduced during the renovation phase, and verify the operational
readiness of inventory items.” The guideline also states that the validation phase must include
an IV&V of test results for MC systems and that the IV&V may be performed by any
individual(s) independent of the developer or certifying individual. JPL had not completed the
IV&V requirement of the validation phase and, therefore, we could not determine the
adequacy of its validation efforts for MC systems. The other five installations audited had
completed the IV&V requirement for the validation phase.

Management’s Comment. Change the sentence on page 1 to read: “JPL reported that it had
completed the validation phase of the four MC systems.”

2. OIG Comments. For the reasons stated in OIG Comment 1, we did not change the
sentence. Before issuing our draft report, we asked JPL about the status of its IV&V efforts
for the four MC systems. JPL informed us that, as of May 6, 1999, it had completed the
IV&V requirement for one of the four MC systems. The Chief Information Officer reaffirmed
such status in his response to the draft report.

Management’s Comment. Delete the sentence on Page 2: “NASA was aware of this
problem and is taking appropriate action.”

3. OIG Comments. We deleted the sentence.

Management’s Comment. Change the statement on page 3 to read: “The sixth location,
JPL, had satisfied the validation testing requirement, as of February 15, 1999. As of May 6,
1999, JPL reported completion of the required independent validation and verification of the
test process for one of four MC systems.”

4. OIG Comments. For the reasons stated in OIG Comment 1, we did not change the
referenced sentence.




                                               14
Appendix F

Management’s Comment. Delete Footnote 7 on page 4.

5. OIG Comments. The footnote now states “IV&V of test results is required for MC items
only; IV&V is not required for NMC items.”




                                           15
                         Appendix G. Report Distribution

National Aeronautics and Space Administration (NASA) Headquarters

A/Administrator
AI/Associate Deputy Administrator
AO/Chief Information Officer
B/Chief Financial Officer
B/Comptroller
BF/Director, Financial Management Division
C/Associate Administrator for Headquarters Operations
G/General Counsel
H/Associate Administrator for Procurement
J/Associate Administrator for Management Systems
JM/Director, Management Assessment Division
L/Associate Administrator for Legislative Affairs
M/Associate Administrator for Space Flight
P/Associate Administrator for Public Affairs
Q/Associate Administrator for Safety and Mission Assurance
R/Associate Administrator for Aero-Space Technology
R/Chief Information Officer Representative
S/Associate Administrator for Space Science
U/Associate Administrator for Life and Microgravity Sciences and Applications
Y/Associate Administrator for Earth Science
Z/Associate Administrator for Policy and Plans

NASA Centers

Director, John H. Glenn Research Center at Lewis Field
Director, Goddard Space Flight Center
Director, Lyndon B. Johnson Space Center
Director, John F. Kennedy Space Center
 Chief Counsel, John F. Kennedy Space Center
Director, George C. Marshall Space Flight Center
Director, NASA Management Office, Jet Propulsion Laboratory




                                            16
Appendix G

Non-NASA Federal Organizations and Individuals

Assistant to the President for Science and Technology Policy
Assistant to the President and Chair, President’s Council on Y2K Conversion
Deputy Associate Director, Energy and Science Division, Office of Management
 and Budget
Branch Chief, Science and Space Programs Branch, Energy and Science Division,
 Office of Management and Budget
Associate Director, National Security and International Affairs Division, Defense
 Acquisition Issues, General Accounting Office
Professional Assistant, Senate Subcommittee on Science, Technology, and Space

Chairman and Ranking Minority Member -- Congressional Committees and
Subcommittees

Senate Committee on Appropriations
Senate Subcommittee on VA, HUD, and Independent Agencies
Senate Committee on Commerce, Science, and Transportation
Senate Subcommittee on Science, Technology, and Space
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on VA, HUD, and Independent Agencies
House Committee on Government Reform and Oversight
House Subcommittee on National Security, Veterans Affairs, and
 International Relations
House Committee on Science
House Subcommittee on Space and Aeronautics

Congressional Member

Honorable Pete Sessions, U.S. House of Representatives




                                             17
Major Contributors to This Report

David L. Gandrud, Program Director, Information Technology Program Audits
Roger W. Flann, Audit Program Manager
Bessie J. Cox, Auditor
James W. Geith, Auditor
Howard Kwok, Auditor
Ellis D. Lee, Auditor
Lydia C. Lin, Auditor
James H. Pearce, Auditor
Mindy N. Vuong, Auditor
Barbara J. Smith, Program Assistant
